                   Report on Follow-Up Audit of Labor
                          Accounting System

                                February 2005

                     Reference Number: 2005-1C-031




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         February 16, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Follow-Up Audit of Labor Accounting System
                             (Audit #20051C0204)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s labor
       accounting system corrective actions as of March 24, 2004, to assure that its system of
       labor controls is adequate to provide labor costs that are reasonable, compliant with
       applicable laws, regulations, and contract terms, and subject to applicable financial
       control systems. The audit was also used to evaluate the contractor’s compliance with
       the system’s internal control requirements.
       The DCAA opined that the contractor’s labor accounting system and related internal
       control policies and procedures remain inadequate in part. The follow-up examination
       determined that the corrective action for one of the prior reported conditions was
       adequate while the corrective action of the second prior reported condition was
       inadequate.
       The DCAA indicated that the contractor has changed its policies and procedures to
       require adjustments for reclassified labor when it becomes aware that adjustments are
       necessary. According to the DCAA, this corrective action is adequate to resolve the
       prior reported condition. However, the contractor has not established specific employee
       awareness training for managers. As a result, the prior reported condition remains
       unresolved.
       The DCAA examined only the labor accounting system. Accordingly, the DCAA
       expresses no opinion on the contractor’s system of internal controls taken as a whole.
                                           2




This DCAA report was issued in March 2004; however, the Treasury Inspector General
for Tax Administration (TIGTA) did not receive the report until January 2005. The
Internal Revenue Service (IRS) previously received a copy of the report directly from the
DCAA. We are transmitting this report to you to enable the IRS to track any financial
accomplishments derived from negotiations with the contractor based on the results of
this DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
